No. 19-267
In The

Supreme Court of the United States
OUR LADY OF GUADALUPE SCHOOL,
Petitioner,
v.
AGNES MORRISSEY-BERRU,
Respondent.
On Petition For Writ Of Certiorari To The United
States Court Of Appeals For The Ninth Circuit
BRIEF AMICI CURIAE OF NATIONAL LEGAL
FOUNDATION, PACIFIC JUSTICE INSTITUTE,
AND INTERNATIONAL CONFERENCE OF
EVANGELICAL CHAPLAIN ENDORSERS
in support of Petitioner

Steven W. Fitschen

James A. Davids
The National Legal
Foundation
524 Johnstown Road
Chesapeake, VA 23322

Frederick W. Claybrook, Jr.

Counsel of Record

Claybrook LLC
700 Sixth St., NW, Ste. 430
Washington, D.C. 20001

David A. Bruce, Esq.
205 Vierling Dr.
Silver Spring, Md. 20904
Counsel for Amici Curiae

1
Statements of Interest 1
The National Legal Foundation (NLF) is a
public interest law firm dedicated to the defense of
First Amendment liberties and the restoration of the
moral and religious foundation on which America was
built. The NLF and its donors and supporters,
including those in California, seek to ensure that an
historically accurate understanding of the Religion
Clauses is presented to our country’s judiciary.
The Pacific Justice Institute (PJI) is a nonprofit legal organization established under Section
501(c)(3) of the Internal Revenue Code. Since its
founding in 1997, PJI has advised and represented in
court and administrative proceedings thousands of
individuals, businesses, and religious institutions,
particularly in the realm of First Amendment rights.
As such, PJI has a strong interest in the development
of the law in this area.
The International Conference of Evangelical
Chaplain Endorsers (ICECE) has as its main
function to endorse chaplains to the military and other
organizations requiring chaplains that do not have a
denominational structure to do so, avoiding the
entanglement with religion that the government
would otherwise have if it determined chaplain
endorsements. ICECE safeguards religious liberty for
All Parties received timely notice of Amici’s intent to file this
Brief and consented to its filing. No Party or Party’s Counsel
authored this Brief in whole or in part, or contributed money that
was intended to fund its preparation or submission; and no
person other than the Amici Curiae, their members or their
Counsel, contributed money that was intended to fund the
preparation or submission of this Brief.

1

2
chaplains and all military personnel.
SUMMARY OF ARGUMENT
This Court in Hosanna-Tabor Evangelical
Lutheran Church and School v. EEOC, 565 U.S. 171
(2012), endorsed the “ministerial exception” as
required by the First Amendment’s Religion Clauses
but left many of its parameters to be defined later. Id.
at 190. The circuits and state courts have proceeded
with the definitional task, with the Ninth Circuit
adopting a highly restrictive test that improperly
disqualifies Ms. Morrisey-Berru as a “minister.”
This case is a good vehicle for this Court to give
further guidance. It should hew to the overriding
demands of the Religion Clauses that require courts
to keep out of the business of divining religious
doctrine and to refrain from second-guessing
judgment calls of religious organizations about whom
they employ to support their mission. This has
importance and applicability to all religious
ministries, not just schools.
ARGUMENT
I. The Ministerial Exception Is Relevant to
Religious
Organizations Other Than
Churches and Schools, and Its Application
Must Be Grounded in Basic First
Amendment Principles Rather Than by
Comparisons to the Teacher in HosannaTabor.
Amici support the petition and make the following
additional points in summary fashion:

3
1. Many religious organizations in addition to
religious schools have a sincere belief that their
mission is best accomplished by associating employees
who are faithful, both in belief and conduct, to the
organization’s doctrines and purposes. Religious
organizations draw the line for which employees must
be co-religionists at different places, but it is always a
line informed by the organization’s own religious
beliefs. It is critical to these groups that the
government, through its anti-discrimination laws, not
be allowed to restrict the free exercise of their religion
when they make those decisions about their
ministries.
2. This Court in Hosanna-Tabor properly began
with first principles: the Religion Clauses themselves
and the protection they offer to religious individuals
and organizations. Simply stated, the Free Exercise
and Establishment Clauses mutually reinforce a
principle that government must not interfere with
religious organizations and the practice of their faith.
Id. at 183-87. More particularly, as this Court noted,
religious organizations have the “power to decide for
themselves, free from state interference, matters of
church government as well as those of faith and
doctrine.” Id. at 186 (quoting Kedroff v. St. Nicholas
Cath. of Russ. Orthodox Church in N. Am., 344 U.S.
94, 116 (1952)).
3. Applying first principles requires looking
beyond the term minister. The Constitution does not
use the term, and the concerns that activate the
“ministerial exception” apply more broadly than just
to the leader of a religious organization, as this Court
properly recognized in Hosanna-Tabor. Id. at 190.
Religious organizations are typically operated by

4
more than just their leaders, and those same
organizations often require fidelity to their own first
principles by most, if not all, of their employees. The
determination for an organization of which employees
must be co-religionists involves its ministry purpose,
its size, its logistical circumstances, and, always, its
understanding of its own religious beliefs and the
resultant conduct expected of its adherents and
associates.
4. As Justice Alito wrote in his Hosanna-Tabor
concurrence, First Amendment protections certainly
reach those who “conduct[ ] worship services or
important religious ceremonies or rituals” and those
who “serve[ ] as a messenger or teacher of [the
organization’s] faith.” Id. at 199 (Alito, J., concurring).
Stated more generally, First Amendment protections
reach any employee performing a religious
organization’s ministries.
5. This rule is a far cry from the method the Ninth
Circuit used. That court, ignoring first principles,
turned the majority decision in Hosanna-Tabor into a
numbers game. One can divide the factors the Court
listed for the teacher involved in Hosanna-Tabor into
four general categories, as the Ninth Circuit did in
Biel v. St. James School, 911 F.3d 603, 614-15 (9th
Cir. 2018), on which the circuit court below principally
relied. Or one could itemize each of the facts
mentioned about the teacher in Hosanna-Tabor,
listing them into the teens. The Ninth Circuit’s
approach of toting up the numbers converts the legal
calculus into how closely analogous to the HosannaTabor teacher’s circumstances the next case happens
to be. This method is not only impractical, because
religious organizations vary greatly in purpose,

5
structure, mission, and doctrine; it also quickly runs
afoul of basic First Amendment principles. It would
make Lutheran-Missouri Synod polity the touchstone
for future cases, to the disadvantage of many other
denominations and faiths. And it would require the
courts to decide what is important to a religious
organization and what is not.
6. Justice Thomas in his concurrence in HosannaTabor presciently warned of the temptation to which
the Ninth Circuit succumbed:
Our country’s religious landscape includes
organizations with different leadership structures
and doctrines that influence their conceptions of
ministerial status. The question whether an
employee is a minister is itself religious in nature,
and the answer will vary widely. Judicial attempts
to fashion a civil definition of “minister” through a
bright-line test or multi-factor analysis risk
disadvantaging those religious groups whose
beliefs, practices, and membership are outside of
the “mainstream” or unpalatable to some.
Moreover, uncertainty about whether its
ministerial designation will be rejected, and a
corresponding fear of liability, may cause a
religious group to conform its beliefs and practices
regarding “ministers” to the prevailing secular
understanding.
565 U.S. at 197 (Thomas, J. concurring) (citing Corp.
of Presiding Bishop of Church of Jesus Christ of
Latter-day Saints v. Amos, 483 U. S. 327, 336 (1987)).
For this reason, the Religion Clauses require courts to
defer to a religious organization’s good-faith
understanding of who qualifies as its “minister.” Id.

6
at 196 (Thomas, J., concurring).
7. Justice Thomas’s words ring true for Amici.
Amici NLF and PJI often represent religious
organizations that do not easily fit into either a church
or school mold. But those organizations have
important ministries fueled by their religious
beliefs—for example, work in disaster relief and
“lifestyle” evangelization—that often do not involve
explicit teaching or conducting standard “worship
services” or “rituals.” See id. at 199 (Alito, J.,
concurring). Amicus ICECE is a ministry assisting our
country’s armed forces and serving explicitly religious
purposes, but, again, it does not perform standard
church services. To suggest that courts are competent
to determine whether employees of non-traditional
ministry organizations are “essential” by analogizing
to the teacher in Hosanna-Tabor or by any other
artificial yardstick conflicts with basic First
Amendment principles. Courts have no more
competence to judge the sincerity of a religious
organization’s decision in such matters than they
have to judge religious beliefs of an individual. See
Thomas v. Review Bd., 450 U.S. 707, 712-15 (1981).
CONCLUSION
The petition should be granted and the Ninth
Circuit’s decision reversed. This Court should provide
additional guidance to the lower courts in this
critically
important
area
before
further
encroachments are made on the First Amendment
freedoms of religious organizations.

7
Respectfully submitted
this 30th day of September 2019,
/s/ Frederick W. Claybrook, Jr
Frederick W. Claybrook, Jr.
Counsel of Record
Claybrook LLC
700 Sixth St., NW, Ste. 430
Washington, D.C. 20001
(202) 250-3833
Rick@Claybrooklaw.com

Steven W. Fitschen

James A. Davids
National Legal Foundation
524 Johnstown Road
Chesapeake, VA 23322
David A. Bruce, Esq.
205 Vierling Dr.
Silver Spring, Md. 20904

